  Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




       MEDICARE BENEFICIARY 

SATISFACTION  WITH DMERC SERVICES 





                     JUNE GIBBS BROWN
                     Inspector General

                          JUNE 1997
                        OEI-02-96-00200
                EXECUTIVE                           SUMMARY

PURPOSE

To determine the knowledge, experiences and satisfaction of Medicare beneficiaries who use
durable medical equipment, prosthetics, orthotics and supplies with services provided by the
Durable Medical Equipment Regional Carriers (DMERCs).

This inspection will complement a larger study, currently planned, which will ascertain
whether the establishment of the DMERCs has met its intended objectives. The Health Care
Financing Administration (HCFA) established these in 1993 to improve processing of
medical equipment and supply claims. Determining beneficiary satisfaction with DMERC
services will help to evaluate how well these carriers are meeting their goals.

BACKGROUND

In October 1993, HCFA began processing medical equipment and supply claims through four
regional carriers called the DMERCs. The DMERCs were given specific responsibilities for
educating Medicare beneficiaries and responding to their questions and concerns. They must
have staff available to respond to written, telephone, and in-person inquiries, and are
required to meet certain standards of timeliness, accuracy, and clarity when responding to
these beneficiary contacts. They must also have a beneficiary outreach program and are
responsible for the first two of five stages of beneficiary appeals.

We surveyed a stratified random sample of 2,000 Medicare beneficiaries who had at least
one medical equipment or supply claim processed by the DMERCs during the first 6 months
of 1996. We sent each of these a mail questionnaire asking about their knowledge,
experiences and satisfaction with beneficiary services provided by the DMERC. We received
responses from 1,487 beneficiaries, 187 of whom had contacted their carrier in the past 12
months. We also conducted structured telephone interviews with DMERC staff from all four
regions to gather information about their outreach activities and beneficiary services.

FINDINGS

Most Beneficiaries Who Have Had Contact With Their DMERC Are Satisfied With The
Service They Received

Twelve percent of beneficiaries report some contact with their DMERC in the past 12
months. Of these, most (81 percent) called. A majority (86 percent) of these beneficiaries
who report contacting their DMERC are very or somewhat satisfied with how their carrier
has served them overall. However, overall satisfaction rates vary among the four regions.
In three regions, over 80 percent of beneficiaries (83 percent, 91 percent, and 98 percent,
respectively) who have contacted their DMERC are satisfied. Just 65 percent report being
satisfied in the fourth region.
Beneficiaries in all four regions who report discourteous staff and long waiting times are
most likely to be dissatisfied. Additionally, beneficiaries with denied claims are less satisfied
and those who wrote their DMERC are least likely to rate their contact favorably. Finally,
most beneficiaries who have appealed a claim are satisfied with the appeals process.

However, Beneficiaries Who Use Medical Equipment And Supplies Have Limited
Knowledge Of Their DMERC, And Few Know Where To Go For More Information
About Their Medicare Benefits

Thirty-nine percent of Medicare users of equipment and supplies know they have a DMERC.
Of this group, only 9 percent are able to correctly identify the name of their carrier, 41
percent do not know the name, and 50 percent wrongly identify a different company as their
DMERC.

Not surprisingly, most beneficiaries do not use their DMERC as a source of information.
Only 17 percent say they would contact the DMERC with questions about their Medicare
benefits for equipment and supplies, and just 15 percent would contact the DMERC if they
wanted to appeal a Medicare decision.

Ten Percent Of Beneficiaries Who Use Medical Equipment And Supplies Report Having
Some Experience With Possible Fraud And Abuse

Five percent of beneficiaries have suspected fraud or abuse related to their medical
equipment and supplies. Of these, 38 percent did not contact anyone about their suspicions,
and nearly one-quarter contacted their supplier. Another 5 percent of beneficiaries, while
saying they have never actually suspected fraud or abuse, report some other experience that
strongly suggests that one or the other occurred. These beneficiaries report never receiving
equipment or supplies, receiving equipment or supplies they did not need, or being charged
more than they were told they would have to pay.

While All Four DMERCs Conduct Beneficiary Outreach, They Do So Only To A
Limited Extent And Report Difficulties In Their Efforts

Staff at the four DMERCs devoted to outreach varies from one to 20; however, only one
person in each DMERC works on outreach on a full-time basis. All four publish and
distribute literature and also participate in conferences, health fairs, and other public events.
Nevertheless, DMERC staff cite obstacles to conducting outreach, ranging from resolving
scheduling conflicts with other organizations which also conduct outreach, to locating the
most appropriate and effective individuals and organizations to disseminate information to.

RECOMMENDATIONS

Our findings of high satisfaction among beneficiaries who have had contact with their
DMERC suggest that HCFA’s initiative to use only four regional carriers to process
Medicare claims for medical equipment and supplies is having some success so far.
However, we believe HCFA can take additional steps to improve the education and service


                                                  ii
of Medicare beneficiaries who use medical equipment and supplies. These steps would
support wider HCFA initiatives to involve beneficiaries in managing their own health care
and in detecting and reporting fraud and abuse.

Specifically, HCFA should:

1. 	   Evaluate ways to increase beneficiary satisfaction with the one DMERC region with
       the lowest overall satisfaction rating;

2. 	   Instruct the DMERCs to emphasize the importance of courteous staff and timeliness in
       responding to beneficiary inquiries, since these two variables appear to be strongly
       related to overall beneficiary satisfaction;

3. 	   Look more carefully at effective ways to educate beneficiaries on what constitutes
       fraud and abuse and what to do if they suspect that one or the other occurs.

COMMENTS

We received comments on the draft report from HCFA and the Assistant Secretary for
Planning and Evaluation (ASPE). They concur with our recommendations. The ASPE also
provided suggestions for clarifications of the text which have for the most part been
incorporated into the final report.

The ASPE expressed some concern with our findings on the appeals process which suggest
that almost 50 percent of beneficiary appeals are successful and that 50 percent take more
than 2 months to be resolved, indicating that some beneficiaries may be waiting for necessary
equipment and supplies. The ASPE therefore recommends that HCFA routinely examine
DMERC denials and the outcomes of beneficiary appeals. We believe the number of
beneficiaries in our survey who appealed a claim (34) is too small on which to base such a
recommendation. While our data may be suggestive of procedural weaknesses, it is too
limited to draw any general conclusions. However, we do believe that this is an important
issue and we currently plan to undertake a broader review of the appeals process.

The ASPE also recommends that HCFA encourage the DMERCs to look for more effective
ways to conduct general outreach. We agree with the need for additional outreach, which
could be conducted along with the more specific fraud and abuse outreach already planned by
HCFA.




                                                ...
                                                111
                          TABLE                           OF            CONTENTS

                                                                                                                                 PAGE

EXECUTIVE SUMMARY


INTRODUCTION                  . . . . . . . . . . . . . . . . .


FINDINGS         ...............................................                                                                     .


  � Beneficiaries       Who Have Contacted Their DMERC Are Satisfied ............                                                    5


  � Beneficiaries        Have Limited Knowledge of DMERCs                                      ...................                   7


  � Ten    Percent Have Experience with Possible Fraud and Abuse                                                 .............       9


  � DMERCs         Conduct Outreach to a Limited Extent                                  .....................                       9


RECOMMENDATIONS                           .....................................                                                     12 



APPENDICES 


A: Sample Selection .......................................                                                                        A-l 


B: Confidence Intervals for Key Questions                                ..........................                                B-l 


C: Non-respondent Analysis                      ...................................                                                C- 1 


D: Comments ...........................................                                                                            D-l 

                            INTRODUCTION

PURPOSE

To determine the knowledge, experiences and satisfaction of Medicare beneficiaries who use
durable medical equipment, prosthetics, orthotics and supplies with services provided by the
Durable Medical Equipment Regional Carriers (DMERCs) .

This inspection will complement a larger study, currently planned, which will ascertain
whether the establishment of the DMERCs has met its intended objectives. The Health Care
Financing Administration (HCFA) established these in 1993 to improve processing of
medical equipment and supply claims. Determining beneficiary satisfaction with DMERC
services will help to evaluate how well these carriers are meeting their goals.

BACKGROUND

Medicare Program

Medicare provides health insurance for approximately 37 million elderly and disabled
beneficiaries under two parts. Part A, hospital insurance, covers services furnished by
providers, such as hospitals, home health agencies, and skilled nursing facilities. Part B,
supplementary medical insurance, covers physician services, outpatient hospital services, and
other medical services and supplies. The Health Care Financing Administration (HCFA)
administers the Medicare program and contracts with carriers and fiscal intermediaries to
process, review, and pay claims for covered services.

One group of items covered under Medicare Part B is durable medical equipment,
prosthetics, orthotics and supplies. Examples of these include wheelchairs, blood glucose
monitors, hospital beds, neck braces, artificial limbs, and some anticancer and
immunosuppressive drugs.

In October 1993, HCFA began processing claims for these items through four regional
carriers called the DMERCs. Their establishment was intended to help eliminate the
inconsistency of coverage and reimbursement for DME that had been problematic in the past.
The DMERCs are divided into regions A, B, C, and D, and cover the entire country. They
were given specific responsibilities for educating Medicare beneficiaries and responding to
their questions and concerns. However, the DMERCs have primary responsibility for
providing such services for users of medical equipment and supplies.

HCFA Beneficiary Services

The HCFA publishes various literature for public distribution. One of its most important
publications, the Medicare Handbook, includes a description of the DMERCs and how to
contact them. Beneficiaries also learn about the DMERCs from their Explanation of
Medicare Benefits forms, which they are sent after receiving Part B services. The form lists
the name and telephone number of the carrier they should contact with any questions or
problems with their claim. Finally, staff from HCFA also deal directly with the public by
responding to beneficiary questions and complaints.

DMERC Beneficiaq      Services

The four DMERCs are required to provide the following beneficiary services.

Beneficiarv Inctuiries. The DMERCs must have staff available to respond to written,
telephone, and in-person inquiries, problems and complaints, They are required to meet
certain standards of timeliness, accuracy, and clarity when responding to these beneficiary
contacts. More specifically, the carriers must provide a toll-free telephone service which
operates during normal business hours for telephone inquires. This number must be separate
from any numbers established for providers and be widely advertised, including being listed
on Explanation of Medicare Benefits forms. The carriers must also have the capacity to deal
with written correspondence and beneficiary visits. Timeliness standards include an interim
or final response within 30 calendar days from receipt of a beneficiary’s letter, a telephone
response within 2 minutes after acknowledgement of a beneficiary call, and a meeting with a
carrier representative within 10 minutes of visiting an office in person.

Beneficiarv Outreach and Education. The DMERCs are required to have a beneficiary
outreach program. To meet this mandate, all four employ staff to conduct educational
activities. These activities include participating in conferences, publishing and disseminating
literature such as pamphlets and newsletters, and coordinating outreach efforts with local and
State agencies such as the State Departments of Aging. Two DMERC ombudsmen also
conduct beneficiary outreach activities.

Fraud and Abuse Units. The DMERC fraud and abuse units are also active in enlisting the
help of the public in combatting fraud and abuse. Beginning June 1, 1996, one Medicare
fraud and abuse information specialist, operating out of region D, began coordinating all of
the beneficiary outreach activities related to fraud and abuse in the four DMERCs.

Beneficiary Apneals Process. The DMERCs are responsible for the first two of five stages
of beneficiary appeals. When appealing a claim decision, a beneficiary can request a first
stage of review by the DMERC reconsideration department within 6 months of the initial
decision. Should the beneficiary wish to continue to a second stage of appeal, he or she can
request a hearing with a hearing officer, an independent arbitrator working for the DMERC
who adjudicates the claim. Appeals taken beyond these first two stages are no longer
adjudicated by the DMERC.

Operation Restore Trust

This inspection is part of a Department of Health and Human Services anti-fraud initiative
called Operation Restore Trust (ORT) designed to target fraud, waste and abuse related to
home health agencies, nursing homes and DME suppliers. Recent reports and investigations
by the OIG showed that these areas are particularly vulnerable to fraud, waste, and abuse.
The ORT initiative targets California, Florida, New York, Illinois, and Texas. These five
States account for 40 percent of the nation’s Medicare beneficiaries and program
expenditures.

METHODOLOGY

Multiple Data Collection Methods

We used three methods of data collection to conduct this inspection. First, we sent a mail
survey to a stratified random sample of Medicare beneficiaries who had one or more claims
submitted for durable medical equipment, prosthetics, orthotics and supplies in the first 6
months of 1996. Second, we conducted structured telephone interviews with DMERC staff
to gather information about their outreach activities and experience handling beneficiary
inquiries. Third, we requested outreach materials from the DMERCs which we reviewed for
content and clarity.

See Appendix A for further discussion of the beneficiary sample selection, Appendix B for
confidence intervals for key survey questions, and Appendix C for a non-respondent analysis.

Beneficiary Survey

We surveyed a stratified random sample of 2,000 Medicare beneficiaries, 500 from each of
the four DMERCs, who had at least one claim processed by the DMERCs during the first 6
months of 1996. Beneficiaries filed claims for a wide variety of medical equipment and
supplies. Some of the most common included: oxygen equipment, blood glucose test strips,
lancets, and wheelchairs. Thirty-four percent of these beneficiaries had at least one denied
claim during this time.

A questionnaire was then mailed to each of these beneficiaries which included questions
about their awareness of the DMERCs; exposure to their literature and other outreach
activities; satisfaction with DMERC performance; and experiences with fraud or abuse. The
survey instructions allowed for a caregiver, family member, or friend to assist in filling out
the items.

After 6 weeks of data collection, during which time we conducted a second mailing to non-
respondents, 1,487 questionnaires were returned to us. We therefore achieved an overall
response rate of 74.4 percent. Response rates between the strata were very similar: 72
percent for Region A; 77 percent for Region B; 74 percent for Region C; and 74 percent for
Region D.

Upon reviewing the returned surveys, it became apparent that some beneficiaries were
confused about the difference between their medical equipment supplier and their DMERC.
Although the DMERC was clearly defined numerous times in the questionnaire, some
respondents clearly answered questions about contact with the DMERC by referring to their
medical equipment supplier. For example, some beneficiaries listed the name of a supplier
when asked for the name of their DMERC, and indicated that the nature of their contact with


                                               3
the “DMERC” was to pick up supplies. To prevent a potential distortion of study findings,
we were careful to exclude answers that were obviously referring to medical equipment
suppliers from questions about contact with the DMERC.

After excluding these questionable cases, we were left with 185 beneficiaries who had
contacted their DMERC by telephone, by mail or in-person, within the past 12 months.
Of these 185 beneficiaries, 48 were from region A, 37 from region B, 46 from region C,
and 54 from region D. Thirty-seven percent of beneficiaries who have contacted their
DMERC had at least one denied claim during the sampling time frame.

For the purposes of this inspection, we will refer to all durable medical equipment,
prosthetics, orthotics and supplies as “medical equipment and supplies.” All differences
reported between subgroups are statistically significant at the 95 percent level unless
otherwise noted.

DMERC Interviews and Outreach Literature Review

We conducted structured telephone interviews with two staff members from each of the four
DMERCs, for a total of eight interviews. Within each DMERC, one interview focused on
outreach activities, while the other focused on beneficiary inquiries.

Staff from the DMERCs were also asked to send us copies of materials used by their
company for beneficiary outreach. We received outreach materials, including brochures,
newsletters, and business cards, from three of the four DMERCs. We reviewed all of these
materials for content and clarity.

This inspection was conducted in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                              4
                                     FINDINGS

MOST BENEFICIARIES WHO HAVE HAD CONTACT WITH THEIR DMERC ARE
SATISFIED WITH THE SERVICE THEY RECEIVED

Twelve Percent of Beneficiaries Report Contacting Their DMERC In the Past 12 Months

Twelve percent of Medicare beneficiaries report some contact with their DMERC in the past
12 months. Of these beneficiaries, 81 percent called, 12 percent wrote, and 18 percent
visited the DMERC in person. These percentages vary little among the four regions.

The most common reason cited by beneficiaries for calling and writing their DMERC was to
discuss billing problems (19 and 20 percent, respectively). Other reasons given for calling
include wanting more information about how Medicare covers medical equipment and
supplies (17 percent) and wanting general information (17 percent). Nineteen percent of
beneficiaries who wrote their DMERC wrote to appeal a claim decision.

The most common reason given by beneficiaries for visiting the DMERC was to obtain
information about different suppliers or types of medical equipment and supplies (24
percent). Other common reasons for these visits were to obtain general information, to
discuss billing problems, and to find out about Medicare coverage of medical equipment and
supplies.

Eighty-six Percent of Beneficiaries Who Say They Have Contacted Their DMERC Rate
Overall Satisfaction With DMERC Service Positively

A majority (86 percent) of the 185 beneficiaries who have contacted their DMERC are very
or somewhat satisfied with how their carrier has served them overall. More specifically, 68
percent are very satisfied and 18 percent are somewhat satisfied. Another 2 percent are
neither satisfied nor dissatisfied, while 12 percent are somewhat or very dissatisfied. Of
those who are satisfied, 15 percent of beneficiaries are able to correctly identify their
DMERC by name.

The main variables contributing to beneficiaries’ dissatisfaction in all four regions include
being served by discourteous carrier staff, long waiting times to get through to the carrier,
and having a claim denied. These variables are discussed in greater detail below.

Overall satisfaction rates with services vary among the four DMERCs. In three regions,
over 80 percent of beneficiaries (83 percent, 91 percent, and 98 percent, respectively) who
have contacted their DMERC are satisfied. Just 65 percent are satisfied in the fourth region.
However, beneficiaries rate DMERC telephone staff courtesy lowest in this region, and many
of those who are dissatisfied report a lack of response or explanation from the DMERC as to
why their claim was denied.




                                                5
Beneficiaries Who Report Discourteous Staff and Long Waiting Times Are Least Likely TO
Be Satisfied

Beneficiaries’ satisfaction with the DMERC is associated with how they perceive staff
courtesy. Ninety-one percent of beneficiaries who contacted their DMERC by telephone
found the staff to be courteous; 97 percent of beneficiaries who visited found the staff to be
so (the remaining 3 percent were neutral). Of those beneficiaries who say staff were
courteous during their most recent telephone call, 89 percent are satisfied overall; however,
of beneficiaries who say staff were not courteous, only 50 percent were satisfied overall.
These findings linking staff courtesy to overall satisfaction are similar to prior beneficiary
satisfaction surveys conducted by the OIG.

Staff courtesy ratings vary among the four DMERC regions. More than 91 percent of
beneficiaries report that staff were courteous during their most recent telephone contact in
three of the four regions (92 percent, 94 percent, and 96 percent respectively). However,
only 77 percent of beneficiaries in the fourth region say staff were courteous. This is also
the region with the lowest overall satisfaction rate amongst its beneficiaries.

Also consistent with findings from past studies, beneficiaries’ waiting time for a response to
an inquiry is related to their overall satisfaction with the DMERC. Three-quarters (75
percent) of beneficiaries calling their DMERC got through right away, while almost half (48
percent) who had written to their DMERC and had received a response did so within 30
days. Finally, three-quarters (75 percent) of beneficiaries who visited their DMERC office
in person were able to meet with a staff member within 10 minutes.

Eighty-nine percent of beneficiaries who got through right away when they called their
DMERC are satisfied overall, compared to only 60 percent of those for whom it took more
than half an hour to get through.

Beneficiaries With Denied Claims are Less Satisfied

Having at least one medical equipment or supply claim denied is negatively related to overall
beneficiary satisfaction with DMERC service. Of those beneficiaries who have had no
denied claims, 90 percent are satisfied overall. In comparison, just 79 percent of those who
had at least one denied claim are satisfied overall.

Beneficiaries Who Wrote Their DMERC Are Least Likely To Rate Their Contact Favorably

Of those beneficiaries who called their DMERC, three-quarters say the DMERC did a very
good or good job handling their inquiry; just 12 percent say the carrier did a poor job. A
majority (89 percent) also found the information they got from their call helpful. Similarly,
79 percent of beneficiaries who visited their DMERC say staff there did a very good or good
job in handling their visit, with almost all (92 percent) saying the information they got as a
result of their visit was helpful.

Of the 25 beneficiaries who wrote their DMERC, however, only nine say the DMERC did a


                                                6
very good or good job. Another nine say the DMERC did a poor job, five gave a neutral
response, and two offered no opinion. The reasons given most often by these beneficiaries
for their poor rating are either a negative decision from the DMERC (such as stopping a
benefit) or the lack of a response from the DMERC. Furthermore, in comparison to
beneficiaries who called or visited their DMERC, beneficiaries who wrote the carrier were
less likely to say the information they received from the DMERC was helpful.

Most Beneficiaries Who Have Appealed A Claim Are Satisfied With The Appeals Process

Of the 185 respondents who had contacted their DMERC, 68 had at least one denied claim,
34 of whom appealed their denial. Of these, 13 won their appeal, 12 lost, and the remainder
are still awaiting a decision. Of those beneficiaries whose claims have been decided, almost
half report that the entire appeals process took 2 months or less. Fourteen of the 25
beneficiaries who have had a decision reached on their appeal report being satisfied with the
process, nine are dissatisfied, and two gave no opinion.

All Four DMERCs Have Similar Procedures In Place To Handle Beneficiary Inquiries

All four of the DMERCs have similar procedures in place for responding to telephone calls
from beneficiaries. They receive from 25,000 to 60,000 beneficiary calls in an average
month, with volume varying across the regions. All four have staff devoted exclusively to
responding to beneficiary calls, as well as a toll-free number for beneficiary use. Once a call
is made, DMERC staff determine the nature of the inquiry and answer any questions
immediately. If more research is necessary, they try to call back the beneficiary within 24
hours. All calls are logged into a computer system, with records kept on the nature of each
call made.

Beneficiary inquiries by mail are made much less frequently than phone inquiries. Three of
the DMERCs report having 500 or fewer inquiries by mail per month. Region C, however,
reports receiving 7,800 inquiries each month by mail. Staff members available to handle
mail inquiries vary among the four DMERCs from one to 42. All regions try to respond to
beneficiary mail within 2 weeks.

All four report having fewer than 10 beneficiary visits per month. Respondents from three
regions say that these visits are handled by the correspondence or telephone staff. Two have
a special area for staff to meet with beneficiaries.

HOWEVER, BENEFICIARIES WHO USE MEDICAL EQUIPMENT AND SUPPLIES
HAVE LIMITED KNOWLEDGE OF THEIR DMERC, AND FEW KNOW WHERE
TO GO FOR MORE INFORMATION ABOUT THEIR MEDICARE BENEFITS

Less Than One-Half of Medicare Users of Equipment and Supplies Know About Their
DMERC

Thirty-nine percent of the 1,487 survey respondents say they know they have a DMERC.
However, many of these beneficiaries appear confused about who this is, perhaps because the


                                               7
DMERCs were only recently established. Of these beneficiaries who claim to know about
their DMERC, only 9 percent are able to correctly identify the name of their DMERC, 41
percent do not know the name of their DMERC, and the remaining 50 percent wrongly
identify a different company as their DMERC. Of this latter group, beneficiaries often give
the name of another Medicare carrier, their medical equipment supplier, or private insurance
company.

These results do not generally differ among the four regions, with beneficiaries from all four
reporting similar levels of awareness about the existence of the DMERC. However, 12
percent of beneficiaries in region D and 14 percent in region A are able to correctly identify
the name of their DMERC, compared to just 5 percent in regions B and C.

Long term users of medical equipment and supplies (that is, those who have had them for
more than 12 months) are somewhat more likely to know they have a DMERC than more
recent users (those who have had their equipment and supplies for 12 months or less).
Forty-five percent of the former know they have a DMERC, compared to 38 percent of the
latter.

Most Beneficiaries Do Not Use Their DMERC As a Source of Information

Medicare beneficiaries appear to be using a variety of information sources for matters related
to their equipment and supplies. For most, this is not the DMERC. Being able to obtain
information related to their Medicare benefits is especially important, considering that two-
thirds (66 percent) do not know what percentage Medicare pays for their equipment and
supplies. Furthermore, 35 percent do not know that their medical equipment supplier is
required to meet certain customer service standards, such as honoring warranties and taking
back bad equipment.

Of the beneficiaries with questions about their Medicare benefits for equipment and supplies,
one quarter state they would contact their physician and another quarter state they would
contact somebody in “the Federal Government’s Medicare program.” Only 17 percent say
they would contact their DMERC, while 12 percent would contact their supplier. Seventeen
percent would not know who to contact.

Furthermore, 36 percent of beneficiaries would contact the Medicare program if they wanted
to appeal a Medicare decision related to their equipment and supplies. One quarter would
not know who to contact if they wanted to appeal a Medicare decision, while only 15 percent
state they would contact their DMERC. An additional 14 percent say they would contact
their physician. Of those beneficiaries in the sample who have had at least one denied claim
in 1996 (34 percent), only 15 percent would know to contact the DMERC to appeal their
denial.

Despite the fact that few Medicare beneficiaries are contacting their DMERC with matters
related to their benefits for equipment and supplies, 10 percent say they would have
contacted their DMERC had they known it existed.



                                               8
TEN PERCENT OF BENEFICIARIES WHO USE MEDICAL EQUIPMENT AND
SUPPLIES REPORT HAVING SOME EXPERIENCE WITH POSSIBLE FRAUD AND
ABUSE

Five Percent of Beneficiaries Have Suspected Fraud or Abuse Related To Their Equipment
and Supplies

Five percent of 1,487 survey respondents answered positively when asked if they had ever
suspected fraud or abuse related to their equipment and supplies. Of these, 38 percent say
they did not contact anyone about their suspicions. Another quarter contacted their medical
equipment supplier, and 16 percent called their physician. Fourteen percent say they
contacted the Medicare program, while 13 percent said they called their DMERC. Finally,
just 1 percent of those who suspected fraud and abuse contacted the Inspector General’s
hotline.

Despite Never Suspecting Fraud and Abuse, Another 5 Percent of Beneficiaries Report
Some Other Problem Which Strongly Suggests That One or the Other Occurred

In addition to the 5 percent of beneficiaries who reported having suspected fraud or abuse,
another 5 percent report having had one or more experiences which strongly suggest that one
or the other occurred. Surprisingly, these beneficiaries say they have never actually
suspected fraud and abuse. Two percent say they were billed for equipment or supplies that
they never received, 2 percent report being charged more than they were told they would
have to pay, and another 2 percent report receiving equipment or supplies that they did not
need.

Just Over Half of All Beneficiaries Would Call The Medicare Program If They Suspected
Fraud and Abuse, But One-fifth Would Not Know Whom to Call, and Only 7 Percent
Would Call the DMERC

Fifty-four percent of all beneficiaries say they would call the “Federal Government’s
Medicare program” to report suspected fraud or abuse. Another 22 percent report they
would not know whom to contact to report suspected fraud or abuse. Ten percent say they
would contact their physician, and only 7 percent would call their DMERC. Interestingly, 3
percent would contact their medical equipment supplier to report abuse or fraud.

WHILE ALL FOUR DMERCs CONDUCT BENEFICIARY OUTREACH, THEY DO
SO ONLY TO A LIMITED EXTENT AND REPORT DIFFICULTIES IN THEIR
EFFORTS

DMERC Staff Devoted to Outreach Varies Between Regions

The number of staff members handling outreach varies from one to 20 across the four
DMERC regions. These numbers do not, however, represent the number of staff devoted to
outreach activities on a full-time basis. In the region with 20 staff members working on
outreach, only one does so full-time, while the rest are volunteers from within other


                                              9
components of the company. In another region, three of the four individuals involved in
outreach activities also do public relations. Finally, one region’s legislative specialist is also
the sole staff person conducting outreach activities.

All Four DMERCs Conduct Similar Outreach Activities

All four of the DMERCs publish and distribute literature, such as pamphlets, newsletters and 

flyers, as an integral part of their outreach program. This literature cover topics such as 

Medicare coverage and non-coverage of DME, secondary payers, and combatting fraud. 

The DMERCs also publish newsletters which deal with specific issues, such as particular 

groups of supplies and capped rentals. 


These printed materials are distributed through mailing lists, consisting mostly of suppliers, 

advocacy groups for the elderly, and local and State Governments. Two DMERCs also 

routinely send out their pamphlets with all beneficiary correspondence. All four also 

distribute their printed materials at conferences and other public events. 


Overall, the outreach materials sent to us by the DMERCs provided useful information in 

simple terms. Each DMERC had a basic informational brochure with their name, address, 

and phone number clearly listed. The brochures discussed the basics of Medicare coverage, 

definitions and examples of durable medical equipment, prosthetics, orthotics and supplies, 

and the purpose of DMERCs. They also had information about how to appeal a claim and 

how to report suspicions of fraud or abuse. In addition to this basic brochure, the DMERCs 

had other types of materials, such as newsletters and flyers. Some of these items were also 

available in Spanish. 


All of the DMERCs also participate in conferences, seminars, or other public events. These 

events include trade shows and health fairs or expos, and are sponsored by local 

governments, hospital associations, and advocacy groups. The DMERCs’ participation at 

these events consists of giving presentations, setting up informational booths, and answering 

beneficiary inquiries. 


Few Beneficiaries Report Any Experience       With Outreach Efforts

One-quarter of beneficiaries (27 percent) have seen or read printed information, such as
pamphlets and brochures, about Medicare coverage of equipment and supplies. Almost all
(97 percent) say this information was helpful. Forty-four percent of these beneficiaries say
this literature was published by the Federal Government’s Medicare program; just 15 percent
report the literature was published by their DMERC. Almost half (46 percent) of the
beneficiaries who have seen some literature related to medical equipment and supplies say it
was sent to them without requesting it, mostly by the Federal Government’s Medicare
program. Another 20 percent picked it up themselves.

More than one-third (37 percent) of Medicare beneficiaries say they would like to receive
more information about their Medicare benefits. Most of these beneficiaries would like
general information on Medicare coverage and reimbursement.


                                                 10
Only 3 percent of Medicare beneficiaries report ever having attended any meeting, seminar
or other public event about Medicare coverage of their medical equipment and supplies. All
of this small group believe the meeting was helpful.

DMERC Staff Cite Obstacles To Conducting Outreach, But Also Report Some Practices
That Appear To Be Effective

Staff at each of the four DMERCs report obstacles which hinder their outreach efforts. A
staff person at one region believes it is difficult to locate the most appropriate and effective
individuals and organizations within each of his region’s States to disseminate his information
to; he is not sure that his information is actually reaching the beneficiaries. In another
region, the outreach staff member cites scheduling conflicts due to the many different groups
he coordinates his outreach activities with. A staff member at a third region identifies the
cost associated with this type of work as the main obstacle to conducting outreach. He also
believes that it is difficult to assess the effectiveness of outreach efforts. Finally, one
employee cites a general lack of knowledge among beneficiaries about who the DMERC is,
as well about Medicare benefits in general. She also believes that lack of attendance at the
advertised events is a major obstacle to conducting effective outreach.

The DMERC staff we interviewed reported what they viewed as effective practices in
conducting outreach. These different practices ranged from using alternative methods of
educating beneficiaries, such as using business cards to advertise their toll-free number, to
promoting beneficiary involvement in outreach activities. One innovative approach being
used involves having Medicare beneficiaries themselves present educational information at
outreach events. Another DMERC distributed an informational video to libraries and cable
companies. Several staff members stated that creative and persistent dissemination of
outreach materials helps to overcome the obstacles they face in educating the Medicare
population.




                                                11
                      RECOMMENDATIONS

Our findings of high satisfaction among beneficiaries who have had contact with their
DMERC suggest that HCFA’s initiative to use only four regional carriers to process
Medicare claims for medical equipment and supplies is having some success so far.
However, we believe HCFA can take additional steps to improve the education and service
of Medicare beneficiaries who use medical equipment and supplies. These steps would
support wider HCFA initiatives to involve beneficiaries in managing their own health care
and in detecting and reporting fraud and abuse.

Specifically, HCFA should:

1. 	   Evaluate ways to increase beneficiary satisfaction with the one DMERC region with
       the lowest overall satisfaction rating;

2. 	   Instruct the DMERCs to emphasize the importance of courteous staff and timeliness in
       responding to beneficiary inquiries, since these two variables appear to be strongly
       related to overall beneficiary satisfaction;

3. 	   Look more carefully at effective ways to educate beneficiaries on what constitutes
       fraud and abuse and what to do if they suspect that one or the other occurs.

COMMENTS

We received comments on the draft report from HCFA and the Assistant Secretary for
Planning and Evaluation (ASPE). They concur with our recommendations. The ASPE also
provided suggestions for clarifications of the text which have for the most part been
incorporated into the final report.

The ASPE expressed some concern with our findings on the appeals process which suggest
that almost 50 percent of beneficiary appeals are successful and that 50 percent take more
than 2 months to be resolved, indicating that some beneficiaries may be waiting for necessary
equipment and supplies. The ASPE therefore recommends that HCFA routinely examine
DMERC denials and the outcomes of beneficiary appeals. We believe the number of
beneficiaries in our survey who appealed a claim (34) is too small to base on which to base
such a recommendation. While our data may be suggestive of procedural weaknesses, it is
too limited to draw any general conclusions. However, we do believe that this is an
important issue and we currently plan to undertake a broader review of the appeals process.

The ASPE also recommends that HCFA encourage the DMERCs to look for more effective
ways to conduct general outreach. We agree with the need for additional outreach, which
could be conducted along with the more specific fraud and abuse outreach already planned by
HCFA.




                                              12
                               APPENDIX                   A

                                   SAMPLE SELECTION

The universe for this inspection was selected by identifying all line items processed by the
DMERCs and posted to HCFA’s 1996 National Claims History 1 percent sample file as of
6130196. These 224,098 records were then summarized by DMERC and Medicare
identification number to eliminate multiple billings for a beneficiary to the same DMERC.
After limiting the line items to those for living beneficiaries, our universe consisted of
31,283 records for 31,159 beneficiaries (several beneficiaries had claims submitted to
multiple DMERCs).

Pre-inspection research indicated that approximately 10 percent of Medicare beneficiaries
who file claims for medical equipment or supplies contact their DMERC. To ensure that we
captured a large enough number of these beneficiaries, we chose a sample size of 2,000
records. This sample size was also based on the assumption of a 70 percent response rate,
which we believed to be attainable based on past beneficiary survey inspections.

From the identified universe, we selected a stratified random sample of 500 beneficiaries
(one was sampled twice) from each of the four DMERCs as follows:



     STRATA (DMERC)                      UNIVERSE                         SAMPLE
           1     (B)                         7,277                           500
           2     63                         12,055                           500
           3     03                          6,165                           500
           4     (4                          5,786                           500


  TOTAL                                     31.283                          2,000




                                             A-   1
                              APPENDIX                   B

                 CONFIDENCE INTERVALS FOR KEY QUESTIONS

We calculated confidence intervals for 13 key questions from the beneficiary mail
questionnaire. The response estimate and 95 percent confidence interval are given for each
of the following:

1. 	   Before you started to answer this questionnaire, did you know that you have a
       Medicare medical equipment carrier (the private insurance company that contracts
       with the Federal Government to process Medicare claims for your medical equipment
       and/or supplies)?
       “Yes” response estimate: 39 %
       Lower interval: 36%
       Upper interval: 42 %

2. 	   What is the name of your Medicare medical equipment carrier?
       “I don’t know” response estimate: 41%
       Lower interval: 37%
       Upper interval: 45%

3. 	   Have you ever seen or read any printed information, such as pamphlets or brochures,
       about Medicare coverage of medical equipment and supplies?
       “Yes” response estimate: 27 %
       Lower interval: 25%
       Upper interval: 29%

4. 	   Do you know what percentage Medicare pays for your medical equipment and/or
       supplies?
       “Yes” response estimate: 34 %
       Lower interval: 31%
       Upper interval: 37%

5. 	   Who would you call if you had a question about your Medicare benefits for medical
       equipment and/or supplies?
       “My Medicare medical equipment carrier” response estimate: 17%
       Lower interval: 15%
       Upper interval: 19%

6. 	   Who would you call if you wanted to appeal a Medicare decision on your medical
       equipment and/or supplies claim?
       “My Medicare medical equipment carrier” response estimate: 15%
       Lower interval: 13%
       Upper interval: 17%



                                            B-   1
7. 	    Have you ever contacted your Medicare medical equipment carrier about any matter
        related to your medical equipment and/or supplies?
        “Yes” response estimate: 12%
        Lower interval: 10%
        Upper interval: 14%

8. 	    Overall, how satisfied have you been with how your Medicare medical equipment
        carrier has served you?
        “Satisfied” response estimate: 86%
        Lower interval: 81%
        Upper interval: 91%

9. 	    In general, how courteous or discourteous were the Medicare medical equipment
        carrier staff during this call?
        “Courteous” response estimate: 91%
        Lower interval: 85%
        Upper interval: 97%

10. 	   What happened when you called?
        “I got through right away” response estimate: 75%
        Lower interval: 68%
        Upper interval: 82%

11. 	   Does the beneficiary report having some experience with possible fraud or abuse?
        “Yes” response estimate: 10%
        Lower interval: 8%
        Upper interval: 12 %

12. 	   Have you ever suspected Medicare fraud or abuse related to your medical equipment
        and/or supplies?
        “Yes” response estimate: 5 %
        Lower interval: 4%
        Upper interval: 6 %

13. 	   Which of the following did you contact about your suspicions?
        “Nobody” response estimate: 38 %
        Lower interval: 24%
        Upper interval: 52%




                                             B-2
                               APPENDIX                    C

                              NON-RESPONDENT ANALYSIS

When surveys are used to collect data, the results may be biased if non-respondents differ
from respondents. For this inspection, a beneficiary for whom a survey was not received is
a non-respondent. To test for the presence of any bias, we first obtained information from
HCFA’s 1 percent Common Working File for all 2,000 beneficiaries who were sent a mail
questionnaire. A total of 1,487 surveys were returned, for a response rate of 74.4 percent.
The following table illustrates the number of responses and the response rate by strata:

STRATA (DMERC)                      NUMBER                 RESPONSE RATE

  1 (B)                              384                          77%
  2 m                                372                          74%
  3   CD)                            371                          74%
  4   6%                             360                          72%

Total Respondents                    1,487                        74%


The survey data are analyzed as a whole and not by strata. However, we did exceed the
desired minimum 70 percent response rate for each strata.

To test for the presence of any non-response bias, we analyzed the variables that might
influence whether an individual would respond to the survey or that might affect his or her
responses. For the 2,000 beneficiaries in our sample, we looked at sex, claim status (i.e.,
whether or not the beneficiary had one or more claims denied during our study period), and
DMERC region. These categorical variables were tested using Chi-square with the
appropriate degrees of freedom.

The results of this analysis are presented in tables A, B and C. The Chi-square values given
in the tables provide a test of the difference between the distribution of the respondents and
that of the non-respondents for the variable of interest. Also provided in the tables are the
response rates by the different values of the variables.

These tables show no statistically significant differences between respondents and non-
respondents for any of the variables tested. Given the results of this analysis, we believe that
the inspection findings fairly represent the experience and opinions of beneficiaries to whom
the questionnaires were sent. We therefore believe that our survey results can be generalized
to the universe of Medicare beneficiaries who had a medical equipment or supplies claim
processed during the first 6 months of 1996.




                                              c-   1
                                   TABLE A 


                                     SEX 

                  Respondents        Non-respondents     Total   Response
                                                                 Rate
Male            608        41%       187           36%   795        76%
Female          879        59%       326           64%   1,205      73%


Total                 1,487                  513         2,000      74%
CHI-SQ = 3.133 

Degrees of Freedom = 1 



                                   TABLE B

                                 CLAIM STATUS
                  Respondents        Non-respondents     Total   Response
                                                                 Rate
At least one    511        34%       191           37%   702        73%
claim denied
No claims       976        66%       322           63%   1,298      75%
denied


Total                 1,487                  513         2,000      74%
CHI-SQ = 1.377
Degrees of Freedom = 1




                                     c-2
                                TABLE C

                              DMERC REGION
                                  Non-respondents




 Total                1,487              513        2,000   74%


II
 CHI-SQ = 3.028 

 Decrees of Freedom = 3                                           I( 





                                   c-3
                              APPENDIX                  D

                        COMMENTS       ON THE DRAFT REPORT

In this appendix, we present in full the comments from the Health Care Financing
Administration and the Assistant Secretary for Planning and Evaluation.




                                            D-l
